                                     SOCIAL SECURITY
MEMORANDUM

Date:   August 30, 2010                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: TheSocial Security Administration’s Hiring Under the American Recovery and
        Reinvestment Act of 2009 (A-12-10-11050)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to determine whether the Social Security Administration reported
        American Recovery and Reinvestment Act of 2009 new hire data to the Office of
        Management and Budget timely and accurately. We also provided information on the
        status and characteristics of these new hires.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
     QUICK RESPONSE
      EVALUATION


  The Social Security Administration’s
Hiring Under the American Recovery and
        Reinvestment Act of 2009

             A-12-10-11050




              August 2010
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                             Background
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA)
reported American Recovery and Reinvestment Act of 2009 (ARRA) new hire data to
the Office of Management and Budget (OMB) timely and accurately. We also provided
information on the status and characteristics of these new hires.

BACKGROUND
ARRA was signed into law on February 17, 2009. 1 One goal of ARRA funding was to
preserve and create jobs. ARRA provided SSA with $500 million 2 to process the
increasing disability and retirement workloads caused in part by the economic downturn
and the leading edge of the baby boomer retirements. In its plan to use these ARRA
funds, 3 SSA reported to OMB that the Agency planned to hire an additional 2,415 staff
to process disability and retirement workloads in Fiscal Year (FY) 2009. This staff
would be hired in the Offices of Operations (Operations) and Disability Adjudication and
Review (ODAR), as well as the disability determination services (DDS), as shown in
Figure 1.




1
    Pub. L. No. 111-5.
2
 Pub. L. No. 111-5, Division A, Title VIII, H.R. 1-71 to H.R. 1-72. ARRA allowed SSA to use up to
$40 million of these funds for health information technology research and activities to facilitate the
adoption of electronic medical records in disability claims. Pub. L. No. 111-5, supra at H.R. 1-72.
3
  SSA’s Agency Wide ARRA Staffing Plan and program-specific Disability and Retirement Workload Plan
for the ARRA funds can be found at SSA’s Internet Web site: www.socialsecurity.gov/recovery/Report
Plan/ DisabilityandRetirementWorkloadPlan.pdf. We reviewed this plan in earlier Office of the Inspector
General (OIG) reviews (see Appendix B).


SSA’s Hiring Under ARRA (A-12-10-11050)                                                                  1
                        Figure 1: Number of Staff Hired Under ARRA


                             300

                                                             1,530
                                                                         Operations (1,530)
             585
                                                                         ODAR (575)

                                                                         DDS (300)




OMB issued guidance on spending and accounting for ARRA funds. 4 The OMB
guidance specified that Federal agencies are required to provide spending and
performance data to the Recovery.gov Website; 5 the official Government-run Website
detailing ARRA spending by Federal agencies and non-Government recipients.
Recovery.gov provides the public with a user-friendly tool to track how and where ARRA
funds are spent.

SSA has also made its ARRA efforts available to the public on its Agency-run ARRA
Website. 6 Moreover, SSA’s FY 2009 Performance and Accountability Report refers
readers to SSA’s ARRA Webpage that highlights ARRA performance measures.




4
 OMB M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and OMB M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, April 3, 2009, Sections 2.7 and 2.8.
5
 OMB M-09-10, Cover Letter. The OMB guidance states that “To facilitate transparency and reporting,
agencies should establish a page on their existing website dedicated to the Recovery Act (i.e.,
www.agency.gov/recovery), which will link to Recovery.gov and will provide a single portal for all agency-
specific information related to the Act. Recovery.gov went live on February 17, 2009, the day President
Obama signed the Act into law. The Recovery Accountability and Transparency Board, also created
under ARRA, operates the site.
6
    SSA’s ARRA Webpage is located at www.socialsecurity.gov/recovery/.


SSA’s Hiring Under ARRA (A-12-10-11050)                                                                  2
                                                          Results of Review
SSA timely reported aggregate FY 2009 staffing information to OMB and Recovery.gov
relating to the number of ARRA employees hired in Operations, ODAR, and the DDSs.
In addition, we reviewed a sample of new hire records and found the number of
FY 2009 ARRA employees hired at Operations and ODAR to be accurate. At the time
of our audit, about 8 percent of the Agency’s new hires had separated from SSA
because either they resigned or SSA terminated them. Because of the Agency’s
process for tracking employment at the DDS level, we were unable to verify the
accuracy of the 300 DDS employees hired using ARRA funding. However, we were
able to determine that FY 2009 hiring at DDS locations was consistent with the ARRA
positions allocated by the Agency.

SSA used multiple hiring authorities to hire the 2,115 employees in Operations and
ODAR. In terms of the most used hiring authority by component, approximately
74 percent of Operations’ employees was hired using the Federal Career Internship
Program (FCIP) authority, and 48 percent of the ODAR employees was hired using the
traditional Competitive Service authority. About 6 percent of the total new employees at
these components was appointed under the Veterans’ Recruitment Appointment (VRA)
authority. In our review of the sample cases, we identified two cases where military
service information for new employees needed updating in SSA’s system. In addition,
we found that approximately 8 percent of the Agency’s hires in our sample had previous
Federal employment experience, including SSA interns who were converted to full-time
employees.

REPORTED ARRA NEW HIRES
SSA timely reported on the aggregate number of FY 2009 ARRA employees hired at
Operations, ODAR, and the DDSs to OMB. However, while we were able to verify the
accuracy of the ARRA-funded SSA new hires, we could not perform this test on the
ARRA-funded DDS new hires because of the Agency’s process for tracking
employment at the DDSs. At the time of our audit, about 8 percent of the Agency’s new
hires reviewed had separated from SSA because they resigned or the Agency
terminated them.

Timely Reporting of FY 2009 ARRA Hiring

SSA timely reported the aggregate number of FY 2009 ARRA hires at Operations,
ODAR, and the DDSs to OMB. SSA then posted this information on Recovery.Gov. 7
For example, the May 29, 2009 posting on Recovery.Gov, under the Financial and
Activity Report, showed that the Agency had hired 1,514 employees in Operations,
299 employees in ODAR, and 267 employees at the DDSs. Under the

7
    SSA staff sent weekly emails to OMB as well as Recovery.Gov (located at recoverupdates@gsa.gov.)


SSA’s Hiring Under ARRA (A-12-10-11050)                                                                3
September 25, 2009, Financial and Activity Report, SSA stated it had attained its ARRA
goal of 2,415 new hires in the 3 components.

While the aggregate ARRA hires in the Financial and Activity Report were correct, the
detailed counts by region were not accurate. For instance, we found that the
Operations’ new hire numbers reported on September 25, 2009, were off by
223 employees—New York Region new hires were not reported and the Dallas Region
reported 29 new hires rather than 146 new hires. We also found other minor
discrepancies between the year-end regional figures reported on Recovery.Gov and the
final regional figures reported to us by Agency staff as part of this review.

ARRA Hires in Operations

SSA provided us with details on the 1,530 employees hired in Operations in FY 2009
using ARRA funds. These new hires were expected to process disability and retirement
workloads in SSA field offices, program service centers, and teleservice centers.
Table1 provides the reported location where the Operations employees were placed. 8

               Table 1: New Hires in Operations Using FY 2009 ARRA Funds
                         Location                 Number of New Hires
               Region1: Boston                              23
               Region 2: New York                          106
               Region 3: Philadelphia                      140
               Region 4: Atlanta                           446
               Region 5: Chicago                           191
               Region 6: Dallas                            146
               Region 7: Kansas City                        54
               Region 8: Denver                             29
               Region 9: San Francisco                     192
               Region 10: Seattle                           50
               Operations (Headquarters)                   153
               Totals                                    1,530

We reviewed 50 randomly selected Operations employees hired using ARRA funding
and found that all 50 employees were hired after SSA received the FY 2009 ARRA
appropriation and before the end of FY 2009. We also verified that SSA issued a
Standard Form 50—Notification of Personnel Action (SF-50)9 for the 50 employees, with



8
 See Appendix D for more information on the location of Operations’ ARRA-funded new hires. We
cannot attest to the distribution among the regions and Operations since we only looked at a sample of
new hires. In addition, the Agency may have updated these figures since our last review of the ARRA
workload staffing plan (see Appendix B).
9
    The SF-50 documents the employee’s Federal service and civil service status.


SSA’s Hiring Under ARRA (A-12-10-11050)                                                                  4
a special citation indicating that they were ARRA-funded positions. 10 Furthermore, we
checked the SSA email accounts for the 50 employees and found that 7 did not have
SSA email accounts. 11 We spoke to SSA staff and learned that these seven employees
(14 percent of our sample) either resigned or had been terminated by the Agency and
removed from SSA’s email system.

ARRA Hires in ODAR

SSA provided us with details on the 585 employees hired in ODAR in FY 2009 using
ARRA funds. These new hires included administrative law judges and support staff who
were assigned to process disability and retirement workloads in SSA hearing offices.
Table 2 provides the reported location where the new ODAR employees were placed. 12

                Table 2: New Hires in ODAR Using FY 2009 ARRA Funds
                          Location            Number of New Hires
                 Region 1: Boston                      31
                 Region 2: New York                    32
                 Region 3: Philadelphia                69
                 Region 4: Atlanta                    141
                 Region 5: Chicago                     66
                 Region 6: Dallas                      87
                 Region 7: Kansas City                 16
                 Region 8: Denver                        6
                 Region 9: San Francisco              114
                 Region 10: Seattle                    23
                 Totals                               585

We reviewed 50 randomly selected ODAR employees hired using ARRA funding and
found that all 50 employees were hired after SSA received the FY 2009 ARRA
appropriation and before the end of FY 2009. We also verified that SSA issued an
SF-50 for the 50 employees, with the correct code indicating they were ARRA-funded
positions. We found that SSA accurately tracked all 50 employees by issuing a special
citation on the SF-50 for each employee hired with ARRA funds. Furthermore, we
checked the SSA email account for the 50 ODAR employees and found that
1 employee in our sample was no longer listed in SSA’s email system because she
resigned.


10
  Per OPM guidance, a new Legal Authority Code “ZEA” was established and required on the SF-50 for
new hires funded by the ARRA appropriation.
11
  We used this as an indicator of an employee’s presence in the Agency since SSA establishes and
terminates employee email accounts in connection with personnel actions.
12
   See Appendix D for more information on the location of ODAR’s ARRA-funded new hires. We cannot
attest to the regional distribution since we only looked at a sample of new hires. In addition, the Agency
may have updated these figures since our last review of the ARRA workload staffing plan (see
Appendix B).

SSA’s Hiring Under ARRA (A-12-10-11050)                                                                      5
ARRA Hires in the DDS Offices

SSA provided us with the location of the 300 DDS employees hired in FY 2009 using
ARRA funds (see Table 3), 13 but was unable to provide details on the specific
individuals hired by the DDSs. SSA staff stated neither the Agency nor the DDS
tracked specific individual employees hired using the FY 2009 ARRA funds. SSA only
tracked the aggregate number of ARRA employees until the maximum of
300 employees had been hired. SSA staff said this approach was consistent with
SSA’s general procedures related to DDS personnel practices. 14 Moreover, the DDSs
were not required to track the ARRA-funded employees hired in their personnel records.
As a result, we were not able to associate specific DDS employees to ARRA-created
positions, as we did with the Agency’s new hires in Operations and ODAR.

                 Table 3: New Hires at DDSs Using FY 2009 ARRA Funds
                           Location            Number of New Hires
                  Region 1: Boston                      12
                  Region 2: New York                    29
                  Region 3: Philadelphia                31
                  Region 4: Atlanta                    118
                  Region 5: Chicago                     41
                  Region 6: Dallas                      17
                  Region 7: Kansas City                  5
                  Region 8: Denver                       2
                  Region 9: San Francisco               28
                  Region 10: Seattle                    17
                  Totals                               300

SSA staff informed us that the Agency had allocated ARRA money to the 10 regional
offices with instructions that the first employees hired should be allocated to the ARRA-
funded positions and later hires allocated to the FY 2009 annual appropriation. We
examined SSA’s Staffing and Workload Analysis Report (FD-15) 15 through the end of
FY 2009 to determine whether the 29 States identified by the regions hired ARRA-

13
   See Appendix D for more information on the location of the DDS’s ARRA-funded new hires. We cannot
attest to the regional distribution since we did not review information on the specific individuals hired. In
addition, the Agency may have updated these figures since our last review of the ARRA workload staffing
plan (see Appendix B).
14
   Though DDS employees are not Federal workers, they are charged with processing and determining
medical eligibility for claimants attempting to gain SSA disability benefits. SSA reimburses the DDS for
100 percent of allowable reported expenditures up to its approved funding authorization. Each DDS is
responsible for establishing positions, recruiting, selecting new hires, and maintaining personnel records.
In addition, the DDS’ adhere to the applicable State-approved personnel standards for any individual
employed in the DDS.
15
   The FD-15 is a DDS management report that provides disability case processing information and a FY
to date count of all DDS employees including a cumulative count of employee hours worked each week.


SSA’s Hiring Under ARRA (A-12-10-11050)                                                                       6
funded employees at or above the ARRA allocation. In every case, we found the
number of new hires exceeded the ARRA staff allocation. The DDSs also received
funds for new employees from the FY 2009 Agency appropriation, so the fact that a
DDS may have hired above the ARRA allocation was not deemed an issue. 16 While
this process did not allow us to perform the same level of review for DDS new hires as
we did with SSA’s internal hires, we were able to confirm that DDS locations were
meeting the hiring ARRA requirements under the Agency’s criteria.

Turnover of ARRA New Hires

After reviewing all of the ARRA new hire data for FY 2009, at the time of our audit we
determined about 8 percent of the Agency’s new hires had separated from SSA
because they resigned or SSA terminated them. Of the 1,530 FY 2009 ARRA
Operations employees hired, 134 (8.8 percent) had left SSA’s employment. In the case
of ODAR, 27 (4.6 percent) of the 585 new hires were no longer working at SSA. We
reviewed 20 ARRA employees who were no longer working at the Agency—10 from
Operations and 10 from ODAR—and found the following:

      •    9 resigned for personal reasons;
      •    4 were terminated;
      •    4 found other jobs; and
      •    3 left but did not provide a reason.

Operations backfilled 6 of the 10 vacant positions with new hires, though only 3 of these
6 new employees were annotated as ARRA-funded positions. ODAR staff could not
confirm whether these 10 positions were backfilled with new hires because it did not
have a reporting mechanism to obtain this information.

CHARACTERISTICS OF ARRA HIRES
In our review of the 2,115 Agency hires in Operations and ODAR, 17 we found that SSA
used multiple hiring authorities 18 for the ARRA employees hired in FY 2009.
Approximately 74 percent of the Operations employees was hired using the FCIP hiring




16
  As noted in our December 2009 report, Disability Determination Services’ Staffing Under the American
Recovery and Reinvestment Act (A-07-09-29156), SSA planned to hire 2,389 employees in addition to
the 300 funded under ARRA to help with the increasing disability workloads.
17
  We could not provide details on DDS new hires because we lacked specific information, as noted
earlier.
18
     See Appendix E for a further discussion of the hiring authorities.


SSA’s Hiring Under ARRA (A-12-10-11050)                                                                  7
authority, 19 and about 48 percent of the ODAR employees was hired under the
Competitive Service hiring authority. About 6 percent of the total new employees at
these components was appointed under VRA authority. See Table 4 for the hiring
authority used and a basic definition of the hiring authority. In addition, about 8 percent
of the Agency’s new hires had previous Federal employment experience.

           Table 4: Hiring Authorities SSA Used for ARRA Employees
 Authority             Definition
 Attorneys - Direct            Under the Direct Hire authority, agencies are responsible for
 Hire1                         establishing their own qualification requirements for attorney
                               positions.
 FCIP1                         FCIP is an alternative external hiring procedure for filling entry-
                               level career ladder positions through the GS-9 level. After
                               successfully completing a 2-year training program, selectees are
                               eligible for conversion to career/career-conditional appointments
                               without further competition.
 VRA                           VRA authority may be used with veterans who have recently
                               separated from active duty or to disabled veterans, as well as to
                               veterans who have served in a campaign for which a badge was
                               authorized. These appointments lead to conversion to
                               career/career-conditional appointments without further
                               competition after successful completion of 2 years of
                               employment.
 Competitive Service           Most Federal civilian jobs use this hiring authority based on
                               competitive procedures and are open to the public.
 Reinstatement                 This relates to the appointment of an individual to a Federal job
                               who previously held career (unlimited eligibility from date of
                               separation) or career-conditional (eligibility only for 3 years from
                               the date of separation) status.
 Reassignment                  This relates to the movement of a Federal employee to a different
                               position or location. For example, the movement of an
                               administrative law judge from one hearing office to another.
 Transfer                      This relates to an employee transferring from one Federal agency
                               to another.
Note 1: See Appendix E for a description of Excepted Service positions and provisions for Direct Hiring
authorities for attorneys and FCIP appointments.

Hiring Authorities

We reviewed the Governmentwide authorities to appoint 1,530 Operations ARRA-
funded employees (see Figure 2). Approximately 74 percent of the Operations
employees was hired using FCIP hiring authority. The FCIP is an excepted authority,
and is used by agencies to hire promising external candidates identified through normal
19
  We learned Agency managers preferred to use FCIP because it (1) allowed quicker hiring under ARRA
and (2) extended the new employee’s period of evaluation. For instance, SSA managers stated the
2-year trial period allows supervisors to make better, more reasoned decisions concerning a trainee’s
ability to fulfill the full range of their target responsibilities than is possible with the 1-year probationary
period associated with a Competitive Service appointment.

SSA’s Hiring Under ARRA (A-12-10-11050)                                                                        8
recruitment efforts. About 14 percent of Operations’ employees was hired using
Competitive Service hiring authority, the traditional method for making appointments to
Federal positions. 20 About 8 percent of the Operations employees was hired using the
VRA authority, and the remaining 4 percent was hired using “Other” authorities
(reinstatement, reassignment, and transfer). 21

                           Figure 2: Hiring Authorities Used in Operations
                                for 1,530 ARRA-Funded New Hires


                            8%         4%
                                                               74%
          14%                                                                 FCIP (74%)
                                                                              Competitive (14%)
                                                                              VRA (8%)
                                                                              Other (4%)




We also reviewed the ODAR authorities used to hire the 585 ARRA-funded employees
(see Figure 3). About 48 percent of the ODAR employees was hired using the
Competitive Service hiring authority. Another 33 percent was hired using a Schedule A
                                                        22
exception, which allowed the direct hiring of attorneys. About 16 percent was hired
using the FCIP authority. The remaining 3 percent was hired using “Other” authorities
                                                     23
(VRA, reinstatement, and disability appointments).




20
  The Competitive Service hiring authority uses standard qualification requirements to rate applicants by
competitive procedures and are open to the public.
21
     See Appendix E for a further discussion of the excepted hiring authorities.
22
  Pursuant to 5 C.F.R. §§ 213.3101 and 3102(d), Attorney positions in the Federal Government are
excepted from the Competitive Service, under an appointment called "Schedule A.” Consequently,
agencies may hire applicants for attorney positions without following the civil service hiring procedures
and qualification standards normally used for Competitive Service jobs.
23
  Schedule A exceptions include disability appointments for applicants with mental retardation or a
severe physical or psychiatric disability. Such applicants can fill any job they are able to perform with or
without reasonable accommodation.

SSA’s Hiring Under ARRA (A-12-10-11050)                                                                        9
                         Figure 3: Hiring Authorities Used in ODAR
                             for 585 ARRA-Funded New Hires
                                       3%
                   16%
                                                                 48%

                                                                          Competitive (48%)
                                                                          Attorneys (33%)
                                                                          FCIP (16%)
                                                                          Other (3%)
          33%




Citizenship Test of ARRA Hires

Our review of the 100 sample ARRA hires (50 from Operations and 50 from ODAR)
revealed that all of the employees are U.S. citizens. While only U.S. citizens may be
appointed in the competitive civil service, Federal agencies may employ certain non-
citizens who meet specific employability requirements in the excepted service or the
Senior Executive Service.

By reviewing SSA’s Numident 24 file, we found that 6 of the 100 new ARRA hires in our
sample had a code indicating that SSA needed to verify their U.S citizenship status. 25
We contacted SSA’s Human Resources staff to verify that all of these employees had
both an Employment Eligibility Verification (Form I-9) and the appropriate E-Verify
checks. 26 We reviewed the documents furnished by SSA’s Human Resource personnel
and found that all six new hires were U.S. citizens based on completed E-Verify checks
and Forms I-9.




24
   SSA’s Numident is a repository for all issued Social Security numbers (SSN). The database contains
information on each SSN owner, such as place of birth, father's name, and mother's maiden name.
25
  In January 2010, we released a report on The Social Security Administration’s Implementation of the
E-Verify Program for New Hires (A-03-09-29154).
26
   In August 2007, OMB mandated that all Federal agencies and departments begin verifying their new
hires through E-Verify. E-Verify is an Internet-based system that allows an employer, using information
reported on an employee's Form I-9, to determine the eligibility of that employee to work in the United
States and helps to certify that employees hired are legally authorized to work in the United States. The
program is operated by the Department of Homeland Security in partnership with SSA.

SSA’s Hiring Under ARRA (A-12-10-11050)                                                                 10
VRA and Creditable Military Experience

About 6 percent of the total new employees in Operations and ODAR was appointed
under VRA. We found that 3 of the 100 employees in our sample were hired under
VRA authority. One of the three had a miscoded SF-50 indicating they had no
creditable military service though the employee had claimed this service in his
Declaration of Federal Employment. All honorable active duty military service is
potentially creditable under the Government’s retirement systems and would be relevant
to the designation of VRA status. We notified SSA’s Human Resources staff about the
discrepancy.

In our review of the sample cases, we identified 10 employees who had claimed
creditable military service though they were not hired under VRA authority. Among this
group, we found another case where the SF-50 for one of the employees stated “no
creditable military service.” As with the first case, we shared this information with SSA’s
Human Resources staff.

Previous Federal Hires

Eight of the 100 ARRA hires in our sample had previous Federal employment
experience (see Table 5). 27 Five of the eight had transferred from other Federal
agencies before being employed at SSA. The remaining three employees were already
working at SSA—two were summer interns hired under ARRA as full-time employees,
and one was a rehired annuitant.

       Table 5: FY 2009 ARRA New Hires with Previous Government Service
     Component              Details                   Previous Agency
 Operations             Summer Intern – hired full-time            SSA
 Operations             Summer Intern – hired full-time            SSA
 Operations             Rehired Annuitant                          SSA
 Operations             Continuous Federal Service                 Department of the Treasury
 Operations             Continuous Federal Service                 Legislative Branch
 ODAR                   Continuous Federal Service                 Department of the Treasury
 ODAR                   Continuous Federal Service                 Department of Health and
                                                                   Human Services
 ODAR                   Continuous Federal Service                 Department of Veterans Affairs




27
  We did not include military service as part of this definition since we discussed military service in a prior
section.

SSA’s Hiring Under ARRA (A-12-10-11050)                                                                     11
                                  Matters for Consideration
SSA timely reported aggregate FY 2009 staffing information to OMB and Recovery.gov
related to the number of ARRA employees hired in Operations, ODAR, and the DDSs.
While we found some of the supporting details reported by the Agency were inaccurate
or incomplete, SSA timely reported the aggregate amount of new hires. SSA may want
to review the supporting details in its FY 2009 submission and update it accordingly.

In terms of accuracy, we were able to verify the accuracy of the 2,115 new hires in
Operations and ODAR. Moreover, at the time of our review, we found that about
8 percent of all the ARRA hires had already left the Agency. Because of the Agency’s
process for tracking employment at the DDS level, we were not able to associate
specific DDS employees to ARRA-created positions. Nonetheless, we were able to
confirm that DDS locations were meeting the hiring requirements under the Agency’s
criteria.

In general, we found that FCIP was an important component in the Agency’s hiring
strategy because of its ability to increase the pace of hiring and allow a longer period of
employee evaluation. FCIP new hires represented about 58 percent of the total hires in
Operations and ODAR when combined. We also found that about 8 percent of the
ARRA hires in our sample had former Federal service, including SSA service. In the
case of the employees we identified with missing creditable military service, we believe
SSA should review these records and correct any discrepancies.




SSA’s Hiring Under ARRA (A-12-10-11050)                                                  12
                                        Appendices
APPENDIX A – Acronyms

APPENDIX B – Selected Office of the Inspector General Reports on the
             American Recovery and Reinvestment Act of 2009

APPENDIX C – Scope and Methodology

APPENDIX D – Fiscal Year 2009 American Recovery and Reinvestment Act Hiring and
             Placement

APPENDIX E – Hiring Authorities Used by the Social Security Administration for
             American Recovery and Reinvestment Act Fiscal Year 2009 Hires

APPENDIX F – OIG Contacts and Staff Acknowledgments




SSA Hiring Under ARRA (A-12-10-11050)
                                                                     Appendix A

Acronyms
    ARRA              American Recovery and Reinvestment Act of 2009

    DDS               Disability Determination Services

    FCIP              Federal Career Internship Program

    FY                Fiscal Year

    ODAR              Office of Disability Adjudication and Review

    OIG               Office of the Inspector General

    OMB               Office of Management and Budget

    Operations        Office of Operations

    OPM               Office of Personnel Management

    Pub. L. No.       Public Law Number

    SSA               Social Security Administration

    SSN               Social Security Number

    VRA               Veterans’ Recruitment Appointment

    Forms

    I-9               Employee Eligibility Verification

    SF-50             Notification of Personnel Action




SSA Hiring Under ARRA (A-12-10-11050)
                                                                                   Appendix B

Selected Office of the Inspector General
Reports on the American Recovery and
Reinvestment Act of 2009
The following three evaluations on the Social Security Administration’s (SSA) planned
hiring and use of the American Recovery and Reinvestment Act of 2009 (ARRA)
funding were conducted by SSA’s Office of the Inspector General (OIG).

The Office of Operations’ Staffing Plans Under the American Recovery and
Reinvestment Act (A-09-09-29157), November 2009

The Office of Operations (Operations) developed an appropriate plan for its $251 million
in ARRA funds to process disability and retirement workloads. At the time of our review,
Operations had hired 1,531 1 employees in front-line positions who were to be trained to
process disability and retirement workloads. In addition, Operations planned to use
approximately $53 million of its ARRA funds for employees to work overtime to process
disability and retirement workloads. However, we identified the following matters for
attention to ensure ARRA funds are properly accounted for and efficiently used and
their benefits are fully disclosed.

      •   SSA used a cost allocation methodology that charged ARRA funds based on the
          average work-year cost to process disability and retirement workloads. The
          charges based on this methodology are approximately $195 million. However,
          the actual costs of the 1,531 new employees’ salaries and benefits will only be
          approximately $101 million.
      •   SSA did not disclose the cost of training time. The OIG reported that SSA’s
          workload plan should separately disclose the estimated $18 million in training
          costs since it is time spent in training rather than processing disability and
          retirement workloads.
      •   The performance measures did not identify all the anticipated benefits of the
          ARRA funds.

The Office of Disability Adjudication and Review’s Staffing Plans Under the
American Recovery and Reinvestment Act (A-12-09-29140), December 2009

SSA allocated $30 million to Office of Disability Adjudication and Review (ODAR) in
Fiscal Year (FY) 2009 and another $93 million in FY 2010 to hire administrative law
judges and support staff. However, at the time of the review, we estimated the actual

1
    SSA has updated the number of ARRA staff hired in Operations since the issuance of this report.


SSA’s Hiring Under ARRA (A-12-10-11050)                                                           B-1
cost of the new hires would be less than ODAR planned for FY 2009. As part of a
related review of staffing plans in Operations, the Agency issued an updated plan
disclosing SSA’s cost allocation methodology, as well as the impact of charging the
average salary and benefits of all ODAR employees compared to the actual costs of the
new hires.

The Office of Management and Budget (OMB) accepted SSA’s plan for how it would
spend ARRA resources to process additional hearing workloads. Nonetheless, we
found the final staffing plan submitted to OMB did not provide information on a number
of areas that would be useful to those relying on the staffing plan, including

   •   a clear breakout of ODAR’s allocation in FY 2010 and anticipated use of
       overtime;
   •   the goals used to allocate new hires by location and skills; and
   •   the key productivity measures for the hearings workload, as well as factors that
       may affect productivity while new hires are coming on board and being trained.

The Disability Determination Services’ Staffing Plans Under the American
Recovery and Reinvestment Act (A-07-09-29156), December 2009

SSA developed an appropriate plan for the $87 million received in ARRA funds to
process disability workloads. At the time of our review, the disability determination
services (DDS) had hired all 300 of the ARRA-funded employees who would be trained
to process disability workloads. In addition, SSA planned to use $23 million of the
ARRA funds for DDS employees to work overtime processing disability workloads and
$10 million for DDS indirect costs.

We identified the following matters for consideration to ensure ARRA funds are properly
accounted for, and efficiently used, and their benefits are fully disclosed.

   •   SSA used a cost allocation methodology that charged ARRA funds based on the
       average workyear cost to process disability and retirement workloads instead of
       the actual cost. In our November 2009 report on ARRA funds allocated to
       Operations, we recommended SSA disclose its cost allocation methodology, the
       cost of new hires, and any overtime for processing disability and retirement
       workloads funded from the ARRA appropriations. In response to our
       recommendation, SSA revised its retirement and disability workload plan to make
       the recommended disclosures.
   •   The one performance measure for DDSs in the Disability and Retirement
       Workload Plan does not disclose all the anticipated benefits of the ARRA funds.




SSA’s Hiring Under ARRA (A-12-10-11050)                                           B-2
                                                                    Appendix C

Scope and Methodology
To accomplish our objective, we:

   •   Reviewed the provisions related to the Social Security Administration (SSA) in
       the American Recovery and Reinvestment Act of 2009 (ARRA) as well as Office
       of Management and Budget memorandums providing guidance to agencies
       implementing provisions under ARRA.

   •   Reviewed SSA’s Agency Wide ARRA Staffing Plan, a program-specific Disability
       and Retirement Workload Plan, and SSA’s Fiscal Year 2009 Performance and
       Accountability Report.

   •   Reviewed information posted to the Recovery.gov Website and the Agency’s
       Financial Activity and Management Report.

   •   Spoke with regional human resource directors and interviewed management staff
       from SSA’s Offices of Operations (Operations); Disability Adjudication and
       Review (ODAR); and Human Resources in Headquarters.

   •   Reviewed a random sample of 100 records for ARRA hires (50 ARRA hires at
       Operations and 50 ARRA hires at ODAR) and verified the information against the
       Standard Federal Notification of Personnel Actions Form (SF-50), SSA email
       accounts, Numident records, and other SSA records.

   •   Examined SSA’s Staffing and Workload Analysis Report (FD-15) for the disability
       determination services’ hiring through the end of Fiscal Year 2009.

With the exceptions stated in the findings of this report, we found the ARRA-funded new
hire data in the personnel records for SSA hires to be reliable. The entities reviewed
were Operations and the Office of Disability Determinations under the Deputy
Commissioner for Operations and ODAR under the Deputy Commissioner for Disability
Adjudication and Review. We performed our review from February through June 2010
in Falls Church, Virginia. We conducted our review in accordance with the Council of
the Inspectors General on Integrity and Efficiency’s Quality Standards for Inspections.




SSA’s Hiring Under ARRA (A-12-10-11050)
                                                                                Appendix D

Fiscal Year 2009 American Recovery and
Reinvestment Act Hiring and Placement
We examined the Fiscal Year (FY) 2009 ARRA-funded hiring for staff at the Social
Security Administration’s Offices of Operations (Operations) and Disability Adjudication
and Review (ODAR), as well as the disability determination services (DDS). 1 We found
that the most ARRA-funded hires were in California (285), Florida (217), and Maryland
(171), as shown in Table D-1. Wyoming and Vermont did not have any ARRA hires.

                             Table D-1: FY 2009 ARRA Hires
    Location                Operations      ODAR          DDS                           Total
    Alabama                      107            22            1                            130
    Alaska                          4            0            3                               7
    Arizona                        24            9            6                             39
    Arkansas                       21           14            0                             35
    California                   158           105          22                             285
    Colorado                       20            4            1                             25
    Connecticut                     2           12            1                             15
    Delaware                        6            1            0                               7
    District of Columbia            5            4          10                              19
    Florida                      142            33          42                             217
    Georgia                        73           16            2                             91
    Hawaii                          5            0            0                               5
    Idaho                           7            0            0                               7
    Illinois                       63           15            2                             80
    Indiana                        12            8            2                             22
    Iowa                            4            4            0                               8
    Kansas                          2            2            5                               9
    Kentucky                       40           17            0                             57
    Louisiana                      34           21            0                             55
    Maine                           2            5            1                               8
    Maryland                     158            13            0                            171
    Massachusetts                  11            5            6                             22
    Michigan                       40           16            1                             57
    Minnesota                       9            4            8                             21
    Mississippi                     6            9            0                             15
    Missouri                       43            9            0                             52
    Montana                         1            0            0                               1


1
 The Agency may have updated these figures since our last review of the ARRA staffing plan (see
Appendix B).


SSA’s Hiring Under ARRA (A-12-10-11050)                                                           D-1
 Location                Operations       ODAR    DDS    Total
 Nebraska                        5            1      0        6
 Nevada                          6            0      0        6
 New Hampshire                   7            8      0       15
 New Jersey                     12            7     25       44
 New Mexico                     18            6      0       24
 New York                       85           16      4      105
 North Carolina                 31            7     36       74
 North Dakota                    2            2      0        4
 Ohio                           51           15     28       94
 Oklahoma                        5            5      0       10
 Oregon                         10           11     13       34
 Pennsylvania                   71           23      0       94
 Puerto Rico                     9            9      0       18
 Rhode Island                    1            1      4        6
 South Carolina                  9           11     17       37
 South Dakota                    1            0      0        1
 Tennessee                      37           26     20       83
 Texas                          68           41     17      126
 Utah                            5            0      1        6
 Vermont                         0            0      0        0
 Virginia                       42           17     19       78
 Washington                     29           12      1       42
 West Virginia                  11           11      2       24
 Wisconsin                      16            8      0       24
 Wyoming                         0            0      0        0
 Total                       1,530          585    300    2,415




SSA’s Hiring Under ARRA (A-12-10-11050)                           D-2
                                                                                     Appendix E

Hiring Authorities Used by the Social Security
Administration for American Recovery and
Reinvestment Act Fiscal Year 2009 Hires
The U.S. Office of Personnel Management (OPM) provides Excepted Service hiring
authorities, which permits hiring outside of the Competitive Service to fill special jobs or
to fill any job in unusual or special circumstances. These Excepted Service authorities
enable agencies to hire individuals when it is not feasible or practical to use traditional
competitive hiring procedures. Direct-hire authority streamlines hiring, allowing
agencies to appoint candidates directly to positions. 1 A description of two of these
Excepted Service appointments follows.

Schedule A Hiring Authority

Agencies must use Schedule A hiring authority for attorneys because, by law, OPM
cannot develop qualification standards or examinations for attorney jobs. Agencies can
use exceptions for other special jobs, including chaplain, law clerk trainee, medical
doctor, dentist, certain interpreters, experts for consultation purposes, and some others.

Schedule B Hiring Authority

Agencies may use Schedule B hiring authority to fill Federal Career Internship Program
positions, an alternative external hiring procedure for filling entry-level career ladder
positions through the GS-9 level. After the successful completion of a 2-year training
program, selectees are eligible for conversion to career/career-conditional appointments
without further competition. Agencies may also use Schedule B hiring authority for the
Student Temporary Employment Program and the Student Career Experience Program.




1
  Direct-hire authority allows agencies to appoint candidates directly to positions where OPM determines
there is a severe shortage of candidates or a critical hiring need. When making appointments under
direct-hire authority, agencies are not required to numerically rate and rank applicants nor apply the rule
of three for veterans’ preference. Agencies still provide public notice of the vacancies and screen all
applicants to ensure that they meet the basic qualification requirements of the position to be filled.



SSA’s Hiring Under ARRA (A-12-10-11050)
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Office

Acknowledgments
In addition to those named above:

   Mary Ann Braycich, Senior Program Analyst

   Asad Isfahani, Auditor

   Parham Price, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-12-10-11050.




SSA Hiring Under ARRA (A-12-10-11050)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
